Nos.20-429,20-454
INTHE

hpr.emt Ohnn1 nf t!Jt 1ltttitth &tufts
AMERICAN MEDICAL ASSOCIATION, et al., Petitioners,

v.
NORRIS COCHRAN, ACTING SECRETARY OF HEALTH AND
HUMAN SERVICES, et al., Respondents.
NORRIS COCHRAN, ACTING SECRETARY OF HEALTH AND
HUMAN SERVICES, et al.,

Petitioners,

v.
MAYOR AND CITY COUNCIL OF BALTIMORE,

Respondent.

ON WRITS OF CERTIORARI TO THE
UNITED STATES COURTS OF APPEALS
FOR THE FOURTH AND NINTH CIRCUITS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, Paul R.Q. Wolfson, a member of
the bar of this Court, certify that the accompanying Opposition of Petitioners in 20-429
and Respondent in 20-454 to Motions of Ohio et al. and the American Association of ProLife Obstetricians & Gynecologists et al. for Leave to Intervene contains 3,377 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.l(d).
Executed on March 18, 2021.

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
paul.wolfson@wilmerhale.com

